Capital Case
Case No. _________________________

In the Supreme Court of the United States
RAYMOND EUGENE JOHNSON,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.
On Petition for Writ of Certiorari to the
Court of Criminal Appeals of Oklahoma

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

THOMAS D. HIRD, OBA # 13580*
MICHAEL W. LIEBERMAN, OBA # 32694
Assistant Federal Public Defenders
Capital Habeas Unit
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
405-609-5975 (phone)
405-609-5976 (fax)
Tom_Hird@fd.org
Michael_Lieberman@fd.org
BEVERLY A. ATTEBERRY, OBA #14856
P.O. Box 420
Tulsa, Oklahoma 74101
(918)605-1913
BeverlyAtteberry@aol.com
COUNSEL FOR PETITIONER
Dated this 5th of March, 2021
*Counsel of Record

INDEX OF APPENDICES

APPENDIX A: Johnson v. Oklahoma, PCD-2018-718 (October 8, 2020)
Oklahoma Court of Criminal Appeals opinion denying
application for post-conviction relief
APPENDIX B: Johnson v. State, 272 P.3d 720 (Okla. Crim. App. 2012)
Oklahoma Court of Criminal Appeals opinion denying
direct appeal
APPENDIX C: Attachment 4 to Application for Post-conviction Relief,
Affidavit of Raymond Johnson
APPENDIX D: Attachment 5 to Application for Post-conviction Relief,
Affidavit of Gregg Graves

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

APPENDIX A

720

Okl.

272 PACIFIC REPORTER, 3d SERIES

¶ 15 While an attorney failing to fulfill her
obligation as counsel and missing court dates
is not to be taken lightly, it is clear that the
Ms. Cowley did not willfully defraud or intentionally harm her clients in any way. Indeed, if the original charges against the her
had proceeded through disciplinary proceedings, it is doubtful the punishment would
have risen to the level of disbarment. State
ex rel. Oklahoma Bar Association v. Whitebook, 2010 OK 72, 242 P.3d 517 and State ex
rel. Oklahoma Bar Association v. Beasley,
2006 OK 49, 142 P.3d 410.
¶ 16 The evidence proves that Ms. Cowley
used sound judgment in her activities following resignation. She exercised caution in
avoiding situations that could have been perceived as the unauthorized practice of law.
She has also worked to remain current in her
knowledge of the law, earning 62.5 CLE
credits since 2005. Ms. Cowley’s youth and
lack of experience in balancing a law practice
appear to have contributed greatly to the
factors leading to her resignation. Her work
in the areas of legal research and writing
illustrate Ms. Cowley’s present legal competence.
CONCLUSION
¶ 17 Ms. Cowley has met her burden of
proof, showing by clear and convincing evidence that she has fully complied with the
requirements of Rule 11, RGDP. Petition for
reinstatement is granted. The Bar has filed
an application for the costs of this proceeding
as allowed by Rule 11.1(c), RGDP, in the
amount of $1,160.31. The Petitioner is ordered to pay these costs within ninety days
of the date of this opinion.
PETITION FOR REINSTATEMENT
GRANTED; COSTS ASSESSED.
CONCUR: COLBERT, V.C.J., KAUGER,
WATT, WINCHESTER, EDMONDSON,
REIF, GURICH, JJ.
DISSENT: TAYLOR, C.J., COMBS, J.

,

2012 OK CR 5

Raymond Eugene JOHNSON, Appellant,
v.
The STATE of Oklahoma, Appellee.
No. D–2009–702.
Court of Criminal Appeals of Oklahoma.
March 2, 2012.

Background: Defendant was convicted by
jury in the District Court, Tulsa County,
Dana L. Kuehn, J., of two counts of first
degree murder, first degree arson, after
former conviction of two or more felonies.
Defendant appealed.
Holdings: The Court of Criminal Appeals,
C. Johnson, J., held that:
(1) city police officers had jurisdiction to
arrest defendant in neighboring city;
(2) defendant’s confession was voluntary;
(3) defendant was not denied due process
by trial court’s refusal to give his proffered instruction defining ‘‘life without
the possibility of parole;’’
(4) trial court did not abuse its discretion
in denying defendant’s request for individual, sequestered voir dire;
(5) trial court did not abuse its discretion
in declining defense counsel’s request
to further voir dire prospective juror
or in excusing juror for cause; and
(6) counsel’s comments during opening
statement did not constitute ineffective
assistance.
Affirmed.
Lumpkin, J., concurred in result.

1. Criminal Law O1153.6
When reviewing the denial of a motion
to suppress evidence, the appellate court reviews the trial court’s ruling for an abuse of
discretion.

APPENDIX B

JOHNSON v. STATE
Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

2. Criminal Law O1139
Appellate court, on review of denial of
motion to suppress evidence, reviews de novo
the trial court’s legal conclusion that the
facts fail to establish a constitutional violation.
3. Automobiles O349(13)
Any pretext on part of officers who arrested capital murder defendant on outstanding traffic warrants was irrelevant and did
render arrest unlawful, though officers suspected he was involved in murder and arson,
as officers arrested defendant on the warrants, which were valid and issued before the
murders occurred. U.S.C.A. Const.Amend.
4.
4. Arrest O57.1
If police have a valid right to arrest an
individual for one crime, it does not matter if
their subjective intent is in reality to collect
information concerning another crime.
U.S.C.A. Const.Amend. 4.
5. Arrest O63.4(2)
Whether a Fourth Amendment violation
has occurred with respect to an arrest turns
on an objective assessment of the officer’s
actions in light of the facts and circumstances
confronting him at the time, and not on the
officer’s actual state of mind at the time the
challenged action was taken.
U.S.C.A.
Const.Amend. 4.
6. Arrest O57.1
If the alleged pretextual arrest could
have taken place absent police suspicion of
defendant’s involvement in another crime,
then the arrest is lawful. U.S.C.A. Const.
Amend. 4.
7. Automobiles O349(13)
City police officers had jurisdiction to
arrest capital murder defendant in neighboring city on any of four outstanding traffic
warrants against him, two of which were
issued by district court for failure to appear
for state traffic warrants and two were issued by the municipal court for failure to
appear for tickets for violations of municipal
ordinances, as officers had authority to arrest defendant under statutes providing that
warrants, except those issued for violation of

Okl.

721

city ordinances, may be served by any peace
officer to whom they may be directed or
delivered, and that a law enforcement officer
of the municipality or a county sheriff may
serve an arrest warrant issued by the municipality any place within the state. 11 Okl.St.
Ann. § 28–121; 22 Okl.St.Ann. § 175.
8. Criminal Law O410.77
A suspect’s statement to police is voluntary, and thus admissible in evidence, only
when it is the product of an essentially free
and unconstrained choice by its maker.
9. Criminal Law O410.77
Whether a suspect’s statements to police
are voluntary in the legal sense, as necessary
to be admissible in evidence, depends on an
evaluation of all the surrounding circumstances, including the characteristics of the
accused and the details of the interrogation.
10. Criminal Law O413.43
When the admissibility of a confession is
challenged at trial, the state must establish
the voluntariness of the confession by a preponderance of the evidence.
11. Criminal Law O1158.13
On appeal of trial court’s ruling that a
confession was voluntary, and, thus, admissible in evidence, the appellate court, considers
whether the district court’s ruling is supported by competent evidence of the voluntary nature of the statement.
12. Criminal Law O410.80, 410.89, 411.96
Capital murder defendant’s confession
was voluntary; police officer who interviewed
defendant at police station read defendant
his rights and asked defendant if he understood them, defendant indicated that he understood his rights and he agreed to talk
with officer defendant did not request an
attorney, he did not appear to be under the
influence of any type of intoxicants, and despite defendant’s claim that officers who
transported him to police station had hit him,
interviewing officer testified that did not appear to have any injuries indicating that he
had been assaulted, and videotape of interview corroborated interviewing officer’s testimony.

APPENDIX B

722

Okl.

272 PACIFIC REPORTER, 3d SERIES

13. Criminal Law O1152.21(1)
Trial court’s decision to give or refuse a
requested jury instruction is reviewed on
appeal for an abuse of discretion.
14. Sentencing and Punishment O1780(3)
A capital murder defendant is not entitled to an instruction during the penalty
phase requiring jury to find that the aggravating circumstances outweigh the mitigating
circumstances; state law requires only that
jurors unanimously find any aggravating circumstance beyond a reasonable doubt.
U.S.C.A. Const.Amend. 6.
15. Constitutional Law O4745
Sentencing and Punishment O1780(3)
Capital murder defendant was not denied due process by trial court’s refusal to
give his proffered instruction defining ‘‘life
without the possibility of parole,’’ though defendant’s future dangerousness was at issue
as an aggravating circumstance, where jury
was instructed on the three punishment options of life imprisonment, life imprisonment
without the possibility of parole, and death,
by which jury was informed that defendant
was parole ineligible.
U.S.C.A. Const.
Amend. 14.
16. Criminal Law O1152.2(2)
Appellate court reviews the manner and
extent of a trial court’s voir dire under an
abuse of discretion standard.
17. Jury O131(13)
Capital murder defendant has no automatic right to individual voir dire.
18. Jury O131(1, 3)
Purpose of voir dire is to determine
whether there are grounds to challenge prospective jurors for either actual or implied
bias and to facilitate the intelligent exercise
of peremptory challenges.
19. Jury O131(13)
The crux of the issue of whether capital
murder defendant is entitled to sequestered,
individualized voir dire is whether he can
receive a fair trial with fair and impartial
jurors.

20. Jury O131(13)
Trial court did not abuse its discretion in
denying capital murder defendant’s request
for individual, sequestered voir dire, as defendant did not allege that his case received
extensive pre-trial media coverage or that
jurors were not candid in their responses
about the death penalty or provided responses tailored to avoid jury service, while trial
court did not grant defense counsel’s request,
it did use jury questionnaires, it advised attorneys that the request could be reurged
and reconsidered if required and trial court
did allow some potential jurors to be questioned individually and outside the presence
of the prospective jury panel when such was
deemed necessary.
21. Jury O108
The proper standard for determining
when a prospective juror may be excluded
for cause because of his views on capital
punishment is whether the juror’s views
would prevent or substantially impair the
performance of his duties as a juror in accordance with his instructions and his oath.
22. Constitutional Law O4754
Due process of law requires that a prospective juror be willing to consider all the
penalties provided by law and not be irrevocably committed to a particular punishment
before the trial begins. U.S.C.A. Const.
Amend. 14.
23. Criminal Law O1158.17
On appellate review of trial judge’s decision as to whether to excuse a prospective
juror for cause, deference must be paid to
the trial judge who sees and hears the jurors,
because the trial judge is in a position to
personally observe the panelists, and take
into account a number of non-verbal factors
that cannot be observed from a transcript.
24. Jury O108
Trial court did not abuse its discretion in
declining defense counsel’s request to further
voir dire prospective juror or in excusing
juror for cause, as while juror initially told
trial court that she could consider all three
punishment options and that she could impose the death penalty in the ‘‘proper case,’’
she later expounded upon this clarifying that

APPENDIX B

JOHNSON v. STATE
Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

Okl.

723

the only circumstance under which she could
consider imposing the death penalty would
be if the case involved someone she knew or
her children, such that her last recorded
response indicated that she was not able to
follow the law and consider the death penalty.

ran to get infant, who was her daughter, and
when she did this, she transferred gasoline to
infant before dropping infant to the floor in
her failed attempt to save them both.
U.S.C.A. Const.Amend. 6.

25. Sentencing and Punishment O1648
Relief from death penalty was not warranted for capital murder defendant on the
basis of race, where defendant could not
prove that jurors in his particular case acted
with a discriminatory purpose.

Defendant’s death sentences on his convictions for murdering his girlfriend and infant daughter were not imposed under the
influence of passion, prejudice, or any other
arbitrary factor. 21 Okl.St.Ann. § 701.13.

26. Criminal Law O1881
Defendant asserting ineffective assistance of counsel is required to show: (1) that
counsel’s performance was constitutionally
deficient, and (2) that counsel’s performance
prejudiced the defense, depriving him of a
fair trial with a reliable result. U.S.C.A.
Const.Amend. 6.
27. Criminal Law O1883
For purposes of the prejudice prong of a
claim of ineffective assistance of counsel, it is
not enough to show that counsel’s failure had
some conceivable effect on the outcome of
the proceeding; rather, defendant must show
that there is a ‘‘reasonable probability,’’ i.e., a
probability sufficient to undermine confidence in the outcome, that, but for counsel’s
unprofessional error, the result of the proceeding would have been different. U.S.C.A.
Const.Amend. 6.
See publication Words and Phrases
for other judicial constructions and definitions.

28. Criminal Law O1942
Defense counsel’s comments during his
opening statement that might have suggested that capital murder defendant set his
girlfriend on fire was a reasonable trial strategy, and, thus, was not ineffective assistance,
in light of defendant’s confession to intentionally murdering girlfriend and his denial of
intentionally harming his infant daughter;
counsel, in order to diffuse the impact of this
evidence indicating that defendant intentionally set his daughter on fire, offered to jury
alternative explanation that evidence indicated that when girlfriend was set on fire, she

29. Sentencing and Punishment O1647

30. Sentencing and Punishment O1679,
1684, 1705, 1720
Evidence supported jury’s findings in
support of its assessment of death sentences
on defendant for murdering his girlfriend
and infant daughter of aggravating circumstances that defendant had been previously
convicted of a felony involving the use or
threat of violence, knowingly created a great
risk of death to more than one person, that
the murders were especially heinous, atrocious, or cruel, and that there existed a probability that he would commit criminal acts of
violence that would constitute a continuing
threat to society. 21 Okl.St.Ann. § 701.13.

An Appeal from the District Court of Tulsa
County; the Honorable Dana L. Kuehn, District Judge.
Doug Drummond, First Asst. District Attorney, Julie Doss, William Musseman, Assistant District Attorneys, Tulsa, OK, attorneys
for the State at trial.
Pete Silva, Chief Public Defender, Gregg
Graves, Assistant Public Defender, Tulsa,
OK, attorneys for the defendant at trial.
Curtis M. Allen, Assistant Public Defender, Tulsa, OK, attorney for appellant on appeal.
E. Scott Pruitt, Attorney General of Oklahoma, Jennifer L. Strickland, Assistant Attorney General, Oklahoma City, OK, attorneys for State on appeal.

APPENDIX B

724

Okl.

272 PACIFIC REPORTER, 3d SERIES
OPINION

C. JOHNSON, Judge.
¶ 1 Appellant, Raymond Eugene Johnson,
was tried by a jury and convicted of First
Degree Murder (Counts I and II) and First
Degree Arson, After Former Conviction of
Two or More Felonies (Count III) in the
District Court of Tulsa County, Case No. CF
2007–3514. The State filed a Bill of Particulars alleging four aggravating circumstances:
(1) the defendant was previously convicted of
a felony involving the use or threat of violence; (2) the defendant knowingly created a
great risk of death to more than one person;
(3) the murder was especially heinous, atrocious, or cruel; and (4) the existence of a
probability that the defendant would commit
criminal acts of violence that would constitute
a continuing threat to society.1 The jury
found Appellant guilty on each count charged
and found the existence of all alleged aggravating circumstances as to each of Counts I
and II. It assessed punishment at death on
Counts I and II and at life imprisonment on
Count III. The trial court sentenced Appellant accordingly ordering the sentences to be
served consecutively. From this Judgment
and Sentence Appellant has appealed.2
I.

FACTS

¶ 2 Brooke Whitaker lived in a house on
East Newton Street in Tulsa with her four
children, the youngest of which, Kya, was
fathered by Appellant. Around February of
2007, Appellant moved in with Brooke and
her children. By April of that year, Brooke
and Appellant were having problems.
Brooke told her mother that Appellant had
threatened to kill her. Because she was
frightened, Brooke and her children moved
in with her mother for two weeks. During
this two week period, Appellant called
Brooke’s mother and told her that he was
going to kill Brooke. Around the first of
May, Brooke and Appellant got back together and Appellant moved back in with Brooke.
1.
2.

21 O.S.2001, § 701.12(1)(2)(4)(7).
Appellant’s Petition in Error was filed December 18, 2009. Appellant’s Brief in Chief was
filed October 18, 2010. Appellee’s Brief was

¶ 3 While Appellant was living with Brooke
he was also involved in a relationship with
Jennifer Walton who became pregnant by
him. Around the first or second week of
June 2007, Appellant wanted to move out of
Brooke’s house and Jennifer arranged for
him to stay with a friend of hers, Laura
Hendrix. On June 22, 2007, Appellant called
Jennifer and asked her to give him a ride.
She picked him up from Laura’s house at
around 10:30 that evening. They drove past
the place where Brooke worked to make sure
she was at work and they drove past her
house to make sure that nobody was there.
Jennifer dropped Appellant off on a side
street near Brooke’s house so that Appellant
could walk to the house and retrieve some of
his clothes. She left him and drove back to
her mother’s house. Appellant was going to
call another friend to give him a ride to
Jennifer’s mother’s house when he was finished getting his clothes.
¶ 4 At about 1:00 a.m. on June 23, 2007,
Appellant called Jennifer and told her that
he was at Denny’s eating while waiting for
Brooke to get home. He called again around
5:00 a.m. to let her know that a friend would
bring him home shortly. Appellant called
Jennifer two more times around 10:00 a.m.
that morning. During these calls he told her
that Brooke was dead and that a friend had
shot her. Appellant wanted Jennifer to pick
him up at a school near Brooke’s house. The
next time he called he told her that the
friend who had killed Brooke was thinking
about burning down the house. While Jennifer was waiting for Appellant at the school,
Appellant called her again and asked her to
pick him up on the street behind the street
where Brooke lived. When she arrived at
this location, Appellant walked to her car
from the driveway of a vacant house. He
was carrying two garbage bags which he put
in the trunk. When Appellant got into the
front passenger seat of Jennifer’s car, she
noticed that he smelled like gasoline and had
blood on his clothes. As she drove away,
Jennifer saw flames pouring out the front
window of Brooke’s house.
filed February 15, 2011. This matter was submitted to this Court on February 23, 2011. Oral
Argument was held on October 25, 2011.

APPENDIX B

JOHNSON v. STATE
Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

¶ 5 Appellant instructed Jennifer to drive
to Laura’s house where he retrieved the garbage bags from the trunk of the car before
they went inside. Appellant placed the bags
on the living room floor and started taking
things out of them, including money that had
blood on it. He washed the blood off of the
money and took a shower. When Jennifer
asked more questions about what had happened, Appellant told her that his friend had
hit Brooke with a hammer. After Appellant
got out of the shower he said that he needed
to go back to Brooke’s house to look for her
cell phone because he had used the phone to
call Jennifer and he was concerned that his
fingerprints would be on it. When they arrived, the street where Brooke’s house was
located was blocked off and ambulance, fire
trucks and police cars were present. Appellant drove to the street behind Brooke’s
house and looked to see if he had dropped
the phone on the driveway of the vacant
house he had walked by earlier. He did not
find the phone. Appellant next drove to
Warehouse Market so that he could put some
money on a prepaid credit card. Then they
went to the parking lot across the street
where Appellant threw his clothes in the
dumpster. After stopping at McDonalds and
Quiktrip, they went back to Laura’s house
where Jennifer stayed with Appellant a while
before she left him there and went to her
mother’s house.
¶ 6 Firefighters were called to Brooke’s
house on east Newton Street at 11:11 a.m. on
June 23, 2007. When they arrived and made
entry into the house, the inside was pitch
black with smoke. After they ventilated the
house and cleared some of the smoke they
found Kya’s burned body inside the front
door on the living room floor behind the
couch. The infant was dead. In a room off
the living room, firefighters found Brooke
Whitaker on the floor partially underneath a
bunk bed. She had extensive burns on her
body, was unconscious without a pulse and
was not breathing. Paramedics initiated resuscitation efforts and a pulse was reestablished. On the way to the hospital paramedics noticed a lot of blood pooling around her
head. When they looked closer, they observed large depressions, indentations and
fractures on her head. Brooke was pro-

Okl.

725

nounced dead shortly after she arrived at the
hospital and was later determined to have
died from blunt trauma to the head and
smoke inhalation. Seven month old Kya was
determined to have died from thermal injury,
the effect of heat and flames.
¶ 7 Investigation of the crime scene revealed numerous items of evidence. A
burned gasoline can was recovered from the
front yard of the residence and samples of
charred debris were collected from the
house. The debris was tested and some of it
was confirmed to contain gasoline. Additionally, investigators noted blood smears and
blood soaked items in numerous places
throughout the house. Brooke’s cell phone
was found on the living room floor and investigators discovered that two calls had been
made from this phone to Jennifer Walton
shortly before the fire was reported.
¶ 8 Walton was located and interviewed by
the police later that same day. She told
police about Appellant’s involvement in the
homicide and she told them that she had
taken Appellant to a trash dumpster when he
returned from Brooke’s house after the fire.
When the police went to the dumpster they
recovered a white trash bag that contained
boots, bloody clothing, Brooke Whitaker’s
wallet with her driver’s license inside and a
claw hammer. They also found blood on the
passenger side door handle inside Walton’s
car.
¶ 9 Pursuant to information given to them
by Walton, the police went to Laura Hendrix’s house in Catoosa to look for Appellant.
They set up surveillance and observed him
exit the house and walk down the street at
around 6:00 p.m. on June 23, 2007. He was
arrested at that time on outstanding warrants and was taken to the Tulsa Police
Station where he waived his Miranda rights
and gave a statement to the police.
¶ 10 Appellant told the police that Jennifer
Walton had taken him to Brooke’s house to
get his stuff the evening of June 22, 2007.
When Brook came home in the early morning hours of June 23, 2007, they talked and
started arguing with each other. During the
argument, Brooke pushed him, called him
names and got a knife to stab him. He

APPENDIX B

726

Okl.

272 PACIFIC REPORTER, 3d SERIES

grabbed a hammer and hit her on the head.
Brooke fell to the floor and asked Appellant
to call 911. Appellant hit her about five
more times on the head with the hammer.
Despite her injuries, Brooke was conscious
and talking. She said that her head hurt and
felt like it was going to fall off. Brooke
begged Appellant to get help and told him
that she wouldn’t tell the police what had
happened but he wouldn’t do it because he
didn’t want to go to jail. Instead, Appellant
went to the shed and got a gasoline can. He
doused Brooke and the house, including the
room where the baby was, with gasoline. He
set Brooke on fire and went out the back
door. Appellant admitted that he was trying
to kill Brooke.
II.

ARREST

[1, 2] ¶ 11 Appellant complains in his first
proposition that the use of traffic warrants to
arrest him was pretextual and the officers
who arrested him were acting outside of their
jurisdiction. Thus, he claims, his arrest was
illegal and the statements he made to the
police shortly after his arrest should have
been suppressed. Prior to trial Appellant
filed a motion to suppress the evidence based
upon this ground. A hearing was held and
Appellant’s motion to suppress was subsequently overruled. Appellant argues on appeal that this ruling was in error. When
reviewing the denial of a motion to suppress,
we review the trial court’s ruling for an
abuse of discretion. See Nilsen v. State, 2009
OK CR 6, ¶ 5, 203 P.3d 189, 191; Seabolt v.
State, 2006 OK CR 50, ¶ 5, 152 P.3d 235, 237.
We review de novo the trial court’s legal
conclusion that the facts fail to establish a
constitutional violation. Burton v. State,
2009 OK CR 10, ¶ 9, 204 P.3d 772, 775.
[3–6] ¶ 12 Appellant first asserts that his
arrest on outstanding warrants was illegal
because it was solely a pretext to hold him
for questioning about the homicides. However, if police have a valid right to arrest an
individual for one crime, it does not matter if
their subjective intent is in reality to collect
information concerning another crime.
Bland v. State, 2000 OK CR 11, ¶ 48, 4 P.3d
702, 718. ‘‘Whether a Fourth Amendment
violation has occurred, ‘turns on an objective

assessment of the officer’s actions in light of
the facts and circumstances confronting him
at the time, TTT and not on the officer’s
actual state of mind at the time the challenged action was taken.’ ’’ Maryland v.
Macon, 472 U.S. 463, 470–71, 105 S.Ct. 2778,
2783, 86 L.Ed.2d 370 (1985) quoting Scott v.
United States, 436 U.S. 128, 136–39 n. 13, 98
S.Ct. 1717, 1722, 1724 n. 13, 56 L.Ed.2d 168
(1978). See also Whren v. United States, 517
U.S. 806, 812–13, 116 S.Ct. 1769, 1774, 135
L.Ed.2d 89, 98 (1996) (Supreme Court reiterated its position that it was unwilling to
entertain Fourth Amendment challenges
based upon the actual motivations of individual officers); Phillips v. State, 1999 OK CR
38, ¶ 41, 989 P.2d 1017, 1031. If the police
action could have been taken against an individual ‘‘even absent the ‘underlying intent or
motivation,’ there is no conduct which ought
to have been deterred and thus no reason to
bring the Fourth Amendment exclusionary
rule into play for purposes of deterrence.’’
See 1 Wayne R. LaFave, Search and Seizure
§ 1.4(e) (4th ed. 2004). In other words, if
the alleged pretextual arrest could have taken place absent police suspicion of Appellant’s involvement in another crime, then the
arrest is lawful. In the present case, Appellant was arrested on outstanding warrants
which were issued before the murders occurred. The officers legally executed the
valid arrest warrants and their subjective
intent does not make this otherwise lawful
conduct illegal or unconstitutional.
[7] ¶ 13 Appellant also complains that his
arrest was unlawful because the Tulsa police
officers who arrested him were acting outside
of their jurisdiction when they arrested him
in Catoosa. The record reflects that Appellant had four outstanding warrants at the
time of his arrest—two were misdemeanor
warrants issued by the Tulsa County District
Court for failure to appear for state traffic
warrants and two were issued by the Tulsa
Municipal Court for failure to appear for
tickets for violations of municipal ordinances.
As the State points out, Tulsa police officers
had jurisdiction under 22 O.S.2001, § 175 to
arrest Appellant anywhere in the state on
the warrants issued by the district court for
failure to appear on state traffic warrants.

APPENDIX B

JOHNSON v. STATE
Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

Section 175 provides, ‘‘All warrants, except
those issued for violation of city ordinances,
may be served by any peace officer to whom
they may be directed or delivered.’’ Further, Tulsa police officers had the authority
under 11 O.S.2001, § 28–121 to arrest Appellant anywhere in the state on the warrants
issued for violation of municipal ordinances
by the Tulsa County Municipal Court. Section 28–121 provides that ‘‘[a] law enforcement officer of the municipality or a county
sheriff may serve an arrest warrant issued
by the municipality any place within this
state.’’ Thus, it is clear that the Tulsa police
officers had jurisdiction to arrest Appellant
in Catoosa on any of the four outstanding
bench warrants. Accordingly, the trial court
did not abuse its discretion in denying Appellant’s motion to suppress based upon his
argument that his arrest was unlawful.
III.

STATEMENT

[8–10] ¶ 14 In Proposition II, Appellant
argues that his statement should have been
suppressed because it was not voluntarily
made. A statement is voluntary, and thus
admissible in evidence, only when it is ‘‘the
product of an essentially free and unconstrained choice by its maker.’’ Culombe v.
Connecticut, 367 U.S. 568, 602, 81 S.Ct. 1860,
1879, 6 L.Ed.2d 1037 (1961). ‘‘Whether a
suspect’s statements to police are voluntary
in the legal sense depends on an evaluation
of all the surrounding circumstances, including the characteristics of the accused and the
details of the interrogation.’’ Underwood v.
State, 2011 OK CR 12, ¶ 33, 252 P.3d 221,
238, citing Schneckloth v. Bustamonte, 412
U.S. 218, 226, 93 S.Ct. 2041, 2047, 36 L.Ed.2d
854 (1973). When the admissibility of a confession is challenged at trial, the State must
establish voluntariness by a preponderance
of the evidence. Young v. State, 2008 OK
CR 25, ¶ 19, 191 P.3d 601, 607.
[11] ¶ 15 In the present case, the district
court heard evidence regarding the voluntariness of Appellant’s statement at an in camera hearing pursuant to Jackson v. Denno,
378 U.S. 368, 84 S.Ct. 1774, 12 L.Ed.2d 908
(1964), and ruled the statement was admissible. On appeal, we consider whether the
district court’s ruling ‘‘is supported by com-

Okl.

727

petent evidence of the voluntary nature of
the statement.’’ Davis v. State, 2004 OK CR
36, ¶ 34, 103 P.3d 70, 80. Again, we review
the trial court’s ruling on a motion to suppress for an abuse of discretion. See Nilsen,
2009 OK CR 6, ¶ 5, 203 P.3d at 191.
[12] ¶ 16 Appellant testified at the Jackson v. Denno hearing that after his arrest, he
was placed in the front passenger seat of a
police car. When the officer got into the
driver’s seat, he said to Appellant, ‘‘Well, let
me get this out of the way. I don’t want the
fine citizens of Tulsa to see the police kicking
your ass.’’ The officer started to drive and
asked Appellant if he knew why he was
under arrest. Appellant responded that he
did not. The officer who was driving then
hit Appellant on the left side of his face. The
officer asked if they needed to ‘‘refresh’’
Appellant’s memory and he asked the officer
in the backseat of the car to pass him a
telephone book. The officer in the backseat
passed the telephone book to the officer who
was driving and then used leg irons to choke
Appellant from behind. During the drive,
the officer in the front seat hit Appellant in
the face a couple of times with the telephone
book. The officers showed Appellant a picture of his daughter, Kya, and asked him if it
refreshed his memory. Appellant started
crying and the officers told him to work with
them and tell them what happened. Appellant told the officers that he wanted an attorney and they told him that there would be no
lawyers and that he would not waste their
time. Appellant said that he made statements to the officers in the car during the
transport because he was ‘‘kind of scared’’
and knew that they would continue to harm
him.
¶ 17 Appellant testified at the Jackson v.
Denno hearing that at the police station, he
was placed in a room where he waited alone
for about five minutes before he was joined
by Detective Regalado who read him his
rights. When Appellant said that he wanted
a lawyer, Regalado stopped the tape recorder and left the room. When Regalado returned, he was accompanied by the two officers who had transported Appellant to the
police station. They started hitting Appellant and giving him body blows. They beat

APPENDIX B

728

Okl.

272 PACIFIC REPORTER, 3d SERIES

him and told him that there would be no
lawyers. They coerced him into cooperating
with them by threatening to charge Jennifer
Walton with accessory to murder. When
they were finished, they put him back into
his chair and left the room again. A few
minutes later Regalado began the interview
again and Appellant cooperated and gave his
video recorded statement. When the interview was finished, Appellant was escorted by
the police to a car in which he was transported to the David L. Moss correctional facility.
As he was walking to that car, news reporters took photographs of him. He claimed in
the hearing that these photos showed injuries and swelling on his face from the beatings he had endured prior to giving his statement.3

slight injury he had received about two
weeks earlier during an argument with
Brooke Whitaker. Appellant did not ask to
stop questioning or request an attorney during the interview.4

¶ 18 Tulsa Police detective Victor Regalado
also testified at the Jackson v. Denno hearing. He testified that before the interview
began, he directed another officer to remove
Appellant’s handcuffs from behind him and
move them to the front. Regalado introduced himself, and asked Appellant preliminary questions about the spelling of his name
and his education. Then Regalado read Appellant his rights and asked Appellant if he
understood them. Appellant indicated that
he understood his rights and he agreed to
talk with the officer. Appellant did not request an attorney. Regalado testified that
Appellant did not appear to be under the
influence of any type of intoxicants. Appellant appeared to understand what Regalado
was saying to him and he gave coherent
answers, articulating well and appearing to
be focused. Regalado denied making any
threats or promises to Appellant or seeing
others make threats or promises to him.
Regalado denied kicking, hitting or punching
Appellant and testified that he did not see
anyone do these things to Appellant. Regalado testified that Appellant did not appear
to have any injuries indicating that he had
been assaulted by the victim or anyone else.
When asked, Appellant referred only to one

¶ 20 Despite Appellant’s testimony at the
suppression hearing, the record strongly supports the conclusion that his statement and
waiver of his rights was the product of a free
and deliberate choice rather than intimidation or coercion. We find from the totality
of the circumstances, there is competent evidence supporting the trial court’s decision
denying Appellant’s motion to suppress his
statements.

3.

Photos taken of Appellant as he left the police
station were admitted into evidence. These were
not good quality photos and do not clearly depict
injuries to Appellant’s face.

4.

The video tape of Appellant’s interview with
Detective Regalado was admitted into evidence

¶ 19 Tulsa Police Officer Philip Forbrich
testified for the State in rebuttal. He was
one of the officers who transported Appellant
from Catoosa to the police station in Tulsa.
Forbrich testified that Detective Sokoloski
drove and Appellant was placed in the front
passenger seat of the car while he sat in the
back seat. The ride to the police station took
about thirty minutes during which there was
very little conversation. Forbrich testified
Appellant was not hit or threatened during
the transport.

IV.

ISSUES RELATING TO
JURY INSTRUCTIONS

[13] ¶ 21 In his third proposition Appellant argues that the trial court erred in denying defense counsel’s request that the jury be
instructed that they had to find that the
aggravating circumstances outweigh the mitigating circumstances beyond a reasonable
doubt. The trial court’s decision to give or
refuse a requested jury instruction is reviewed on appeal for an abuse of discretion.
Soriano v. State, 2011 OK CR 9, ¶ 10, 248
P.3d 381, 387.
[14] ¶ 22 Appellant acknowledges that
this Court has held that the State is not
required to prove beyond a reasonable doubt
during the hearing. This recording corroborated
Regalado’s testimony about the content of the
interview as well as Appellant’s demeanor and
appearance during the interview. The video recording does not depict the injuries Appellant
claims were inflicted prior to the interview.

APPENDIX B

JOHNSON v. STATE
Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

that the alleged aggravating circumstances
outweigh the mitigating factors. Harris v.
State, 2004 OK CR 1, ¶ 66, 84 P.3d 731, 754–
55. However, he urges this Court to reconsider this position in light of the recently
decided Supreme Court authority. We have
already done so. In Glossip v. State, 2007
OK CR 12, ¶ 118, 157 P.3d 143, 161, we
rejected the argument that failure to give
this instruction resulted in a death sentence
that is unconstitutional and unreliable under
Ring v. Arizona, 536 U.S. 584, 122 S.Ct.
2428, 153 L.Ed.2d 556 (2002). Further, we
have consistently rejected this claim in more
recent cases. See Cuesta–Rodriguez v.
State, 2010 OK CR 23, ¶ 103, 241 P.3d 214,
245; Mitchell v. State, 2010 OK CR 14, ¶ 127,
235 P.3d 640, 665; Rojem v. State, 2009 OK
CR 15, ¶ 27, 207 P.3d 385, 396; Torres v.
State, 2002 OK CR 35, ¶¶ 5–7, 58 P.3d 214,
216. We are not persuaded to revisit the
issue here and we continue to hold that no
such instruction is necessary, as Oklahoma
law requires only that jurors unanimously
find any aggravating circumstance beyond a
reasonable doubt. Harris, 2004 OK CR 1,
¶ 66, 84 P.3d at 754–55. The trial court did
not abuse its discretion in declining this requested instruction.
[15] ¶ 23 Defense counsel also requested
an instruction defining ‘‘life without the possibility of parole.’’ The trial court declined
to give the requested instruction finding that
the meaning of this phrase is self-evident.
Appellant argues in his fourth proposition
that this ruling was in error. Again, the trial
court’s decision to give or refuse a requested
jury instruction is reviewed on appeal for an
abuse of discretion. Soriano, 2011 OK CR 9,
¶ 10, 248 P.3d at 387. Appellant notes that
this Court has never required a trial court to
give this type of instruction but he asks us to
reconsider this issue in the case at bar.
¶ 24 This Court has long held that the
meaning of life without parole is self-explanatory and an instruction on its meaning is not
required. Warner v. State, 2006 OK CR 40,
¶ 158, 144 P.3d 838, 885. See also Murphy v.
State, 2002 OK CR 24, ¶ 52, 47 P.3d 876, 886;
Young v. State, 2000 OK CR 17, ¶ 102, 12
P.3d 20, 46. However, Appellant argues that
this line of cases is outdated. In support of

Okl.

729

his argument Appellant cites to several cases
where the jury asked questions about the
punishment of life without parole although in
the present case, the jury asked no questions
indicating confusion about the punishment of
life without the possibility of parole. Appellant also cites to Simmons v. South Carolina,
512 U.S. 154, 156, 114 S.Ct. 2187, 2190, 129
L.Ed.2d 133 (1994), wherein the Supreme
Court held that ‘‘where the [capital] defendant’s future dangerousness is at issue, and
state law prohibits the defendant’s release on
parole, due process requires that the sentencing jury be informed that the defendant
is parole ineligible.’’ However, where the
jury is instructed on the three punishment
options of life, life without the possibility of
parole and death, this Court has held that
the three-way choice fulfills the Simmons
requirement that a jury be notified if the
defendant is parole ineligible. Wood v. State,
2007 OK CR 17, ¶ 18, 158 P.3d 467, 475
(‘‘[I]nstructing a capital sentencing jury on
the three statutory punishment options, with
their obvious distinctions, is sufficient to satisfy the due process concerns addressed in
Simmons.’’).
¶ 25 Appellant’s argument regarding the
necessity of an instruction defining the punishment option of life without the possibility
of parole falls short. If there is a case which
calls for the reconsideration of this issue, it is
not the case before us. We find Appellant
was not denied due process or a fundamentally fair trial when the trial judge declined
to provide the jury more information on this
issue than is currently required.
V.

ISSUES RELATING TO VOIR DIRE

[16] ¶ 26 Appellant argues in his fifth
proposition that he was denied his constitutional right to an adequate voir dire by the
trial court’s denial of his request for sequestered, individualized voir dire. This Court
reviews the manner and extent of a trial
court’s voir dire under an abuse of discretion
standard. Williams v. State, 2008 OK CR
19, ¶ 27, 188 P.3d 208, 217.
[17–19] ¶ 27 Appellant acknowledges that
this Court has never found that individual,
sequestered voir dire is required in all capital

APPENDIX B

730

Okl.

272 PACIFIC REPORTER, 3d SERIES

cases. Indeed, ‘‘[w]e have left the decision
for individual voir dire to the discretion of
the district court and have rejected requests
for a mandatory rule requiring the use of
individual sequestered voir dire in capital
cases.’’ Harmon v. State, 2011 OK CR 6,
¶ 13, 248 P.3d 918, 929, citing Jones v. State,
2006 OK CR 17, ¶ 16, 134 P.3d 150, 156.5
Although a defendant has no automatic right
to individual voir dire, he has the right to
request such as individual voir dire has been
deemed appropriate in certain cases. See
Harmon, 2011 OK CR 6, ¶ 13, 248 P.3d at
929 (individual voir dire appropriate in cases
that have been the subject of extensive pretrial news coverage); Cuesta–Rodriguez,
2010 OK CR 23, ¶ 57, 241 P.3d at 233 (‘‘Individual voir dire is appropriate where the
record shows jurors were not candid in their
responses about the death penalty, or that
responses were tailored to avoid jury service.’’). Because the purpose of voir dire is
to determine whether there are grounds to
challenge prospective jurors for either actual
or implied bias and to facilitate the intelligent
exercise of peremptory challenges, the crux
of the issue is whether the defendant can
receive a fair trial with fair and impartial
jurors. Harmon, 2011 OK CR 6, ¶ 13, 248
P.3d at 929; Mitchell v. State, 2010 OK CR
14, ¶ 11, 235 P.3d 640, 646.
[20] ¶ 28 Appellant does not allege that
this case received extensive pre-trial media
coverage or that jurors were not candid in
their responses about the death penalty or
provided responses tailored to avoid jury service. Rather, he argues generally that the
denial of individualized, sequestered voir dire
adversely affected his right to the effective
assistance of counsel and due process. The
record does not support his argument. As
the State points out, although the trial court
did not grant defense counsel’s request for
individualized voir dire, the court did utilize
jury questionnaires. Additionally, the trial
court advised the attorneys that the motion
for individualized voir dire could be reurged
and reconsidered if required and the trial
court did, in fact, allow some potential jurors
to be questioned individually and outside the
5.

This Court in Jones declined to adopt a mandatory rule requiring the use of individual sequestered voir dire in capital cases but did urge trial

presence of the prospective jury panel when
such was deemed necessary. There is no
evidence that full sequestered, individualized
voir dire was necessary or that Appellant did
not receive a fair trial with fair and impartial
jurors. The district court did not abuse its
discretion in denying defense counsel’s request.
¶ 29 Appellant argues in his Sixth Proposition that the jury selection process violated
his constitutional rights because the trial
court improperly dismissed potential jurors
who revealed in voir dire that they would
‘automatically’ exclude the death penalty as
an option due to their personal beliefs, without giving defense counsel the opportunity to
further question and rehabilitate them. Appellant complains that the trial court’s excusal of these prospective jurors for cause left
him with a group of potential jurors composed of death penalty advocates. Again, the
manner and extent of a trial court’s voir dire
is reviewed on appeal under an abuse of
discretion standard. Williams, 2008 OK CR
19, ¶ 27, 188 P.3d at 217.
[21–23] ¶ 30 ‘‘The proper standard for
determining when a prospective juror may be
excluded for cause because of his or her
views on capital punishment is whether the
juror’s views would ‘prevent or substantially
impair the performance of his duties as a
juror in accordance with his instructions and
his oath.’ ’’ Williams v. State, 2001 OK CR
9, ¶ 10, 22 P.3d 702, 709, quoting Wainwright
v. Witt, 469 U.S. 412, 424, 105 S.Ct. 844, 852,
83 L.Ed.2d 841 (1985). ‘‘Due process of law
requires that a prospective juror be willing to
consider all the penalties provided by law
and not be irrevocably committed to a particular punishment before the trial begins.’’
Sanchez v. State, 2009 OK CR 31, ¶ 44, 223
P.3d 980, 997. Deference must be paid to
the trial judge who sees and hears the jurors
because the trial judge is in a position to
personally observe the panelists, and take
into account a number of non-verbal factors
that cannot be observed from a transcript.
Harmon, 2011 OK CR 6, ¶ 18, 248 P.3d at
courts to use a juror questionnaire and conduct
individual sequestered voir dire in capital cases.
Jones, 2006 OK CR 17, ¶ 16, 134 P.3d at 156.

APPENDIX B

JOHNSON v. STATE

731

Okl.

Cite as 272 P.3d 720 (Okla.Crim.App. 2012)

929–30; Grant v. State, 2009 OK CR 11, ¶ 17,
205 P.3d 1, 11. Further, where, as in the
present case, the trial court used the questions set forth in Oklahoma Uniform Jury
Instruction (OUJI–CR 2d) 1–5, and the lastrecorded answers of these prospective jurors
indicated that they were not able to consider
the death penalty, this Court held that the
trial court did not abuse its discretion in
striking the prospective jurors for cause
without allowing defense counsel an opportunity to further question them. Jones v.
State, 2009 OK CR 1, ¶ 17, 201 P.3d 869, 877.
[24] ¶ 31 Although Appellant makes a
broad claim of error regarding the trial
court’s excusal of prospective jurors for
cause without allowing defense counsel an
opportunity to rehabilitate the jurors, he only
complains specifically about the dismissal of
one prospective juror. The record reflects
that Juror R. initially told the trial court that
she could consider all three punishment options and that she could impose the death
penalty in the ‘‘proper case.’’ However, she
later expounded upon this clarifying that the
only circumstance under which she could
consider imposing the death penalty would
be if the case involved someone she knew or
her children. When the prosecution moved
to have Juror R. removed for cause, defense
counsel objected arguing that her inability to
consider the death penalty as an option was
not clear and he requested the opportunity to
question her further. The trial court noted
that Juror R.’s response was quite unequivocal about her inability to consider the death
penalty in cases in which her children had
not been murdered. The court denied defense counsel’s request and excused Juror R.
for cause. We find on this record that the
trial court did not abuse its discretion in
declining defense counsel’s request to further
voir dire this prospective juror and in excusing her for cause after she had been asked
the appropriate clarifying questions regarding her willingness to consider the death
penalty, and her last recorded response indicated that she was not able to follow the law
and consider the death penalty.
¶ 32 We also note that the record clearly
does not support Appellant’s broad assertion
that the trial court excused all prospective

jurors who were conscientiously opposed to
the death penalty leaving him only with a
group of potential jurors composed of death
penalty advocates. As the State points out,
the trial court denied the prosecution’s motion to dismiss for cause one prospective
juror who initially indicated that she could
never return a verdict which assessed the
death penalty but later stated that she could
consider the death penalty under certain circumstances, but that she did not support it
generally as she considered it to be a ‘‘violation of our basic human rights.’’ This prospective juror, although personally opposed
to the death penalty, stated that she could
consider it as an option and was not removed
from the panel for cause. The trial court did
not improperly dismiss potential jurors leaving Appellant with a group of potential jurors
composed of death penalty advocates. The
jurors who served on this case indicated they
could consider all three penalties provided by
law. There was no abuse of discretion in the
manner and extent of the trial court’s voir
dire. This proposition is denied.
VI.

CONSTITUTIONALITY OF
THE DEATH PENALTY

¶ 33 Appellant contends in his seventh
proposition that his death sentence must be
reversed because capital punishment is unconstitutional as applied. Appellant’s argument, that capital punishment is unworkable
and ultimately unconstitutional, is based
largely upon the position of the American
Law Institute that the death penalty cannot
be adequately administered. This argument
is not unlike earlier arguments urging this
Court to adopt the resolution of the American Bar Association recommending a moratorium on the imposition of death penalty. We
have consistently rejected this position. See
Martinez v. State, 1999 OK CR 47, ¶ 27, 992
P.2d 426, 432; Alverson v. State, 1999 OK
CR 21, ¶ 58, 983 P.2d 498, 517; Patton v.
State, 1998 OK CR 66, ¶ 115, 973 P.2d 270,
300.
[25] ¶ 34 In the present case, Appellant
notes several obstacles to providing adequate
capital justice including the politicization of
the capital process, racial discrimination, inadequacy of court regulation, inadequacy of

APPENDIX B

732

Okl.

272 PACIFIC REPORTER, 3d SERIES

resources of capital defense services and the
lack of meaningful independent federal review of capital conviction. Most of these
arguments are policy arguments which are
best left to the legislature. Hogan v. State,
2006 OK CR 19, ¶ 82, 139 P.3d 907, 934
(policy matters fall within the purview of the
legislature and not the courts). Further,
although issue of race as a factor in the
imposition of the death penalty is not a policy
argument, Appellant acknowledges that he
cannot prove that his sentence of death was
racially motivated. Absent such a showing,
relief is not warranted on this claim. Alverson, 1999 OK CR 21, ¶ 58 n. 79, 983 P.2d at
517 n. 79, citing McCleskey v. Kemp, 481
U.S. 279, 107 S.Ct. 1756, 95 L.Ed.2d 262
(1987)(relief will not be granted on the basis
of discrimination unless the Appellant can
show the jurors in his particular case acted
with discriminatory purpose).
¶ 35 As in earlier cases, Appellant has
failed to offer authority showing that his
execution would be violative of the constitution. We decline to consider this issue further.
VII.

EFFECTIVE ASSISTANCE
OF COUNSEL

[26, 27] ¶ 36 In his eighth proposition,
Appellant argues that he was denied his
Sixth Amendment right to the effective assistance of counsel because his attorney conceded in his opening statement, without Appellant’s consent, that Appellant had set
Brooke Whitaker on fire. This Court reviews claims of ineffective assistance of counsel under the two-part Strickland test that
requires an appellant to show: (1) that counsel’s performance was constitutionally deficient; and (2) that counsel’s performance
prejudiced the defense, depriving the appellant of a fair trial with a reliable result.
Strickland v. Washington, 466 U.S. 668, 687,
104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984);
Davis v. State, 2005 OK CR 21, ¶ 7, 123 P.3d
243, 246. It is not enough to show that
counsel’s failure had some conceivable effect
on the outcome of the proceeding. Rather,
an appellant must show that there is a reasonable probability that, but for counsel’s
unprofessional error, the result of the pro-

ceeding would have been different. Head v.
State, 2006 OK CR 44, ¶ 23, 146 P.3d 1141,
1148. ‘‘A reasonable probability is a probability sufficient to undermine confidence in
the outcome.’’ Id.
[28] ¶ 37 In support of his position, Appellant cites to Jackson v. State, 2001 OK CR
37, ¶ 25, 41 P.3d 395, 400, where this Court
stated, ‘‘a complete concession of guilt is a
serious strategic decision that must only be
made after consulting with the client and
after receiving the client’s consent or acquiescence.’’ However, the record before this
Court reveals that defense counsel in the
present case did not expressly concede guilt.
Rather, in opening argument, defense counsel stated that he anticipated the jury would
hear evidence from the Fire Marshall indicating that Kya’s body was found at the point
of ignition. In order to diffuse the impact of
this evidence indicating that Appellant intentionally set Kya on fire, defense counsel offered another explanation. He suggested to
the jury that this evidence ‘‘indicat[ed] that
when Brooke was set on fire,’’ she ran to get
Kya and when she did this, Brooke transferred gasoline to Kya before dropping the
child to the floor in her failed attempt to save
them both. While this argument may have
suggested that the evidence would show that
Appellant set Brooke on fire, this was not an
unreasonable trial strategy in light of Appellant’s confession to intentionally murdering
Brooke and his denial of intentionally harming Kya. The entire argument taken in context supports the conclusion that defense
counsel’s argument was neither an overt nor
a complete concession of guilt and thus, Appellant’s consent was not required. See Lott
v. State, 2004 OK CR 27, ¶ 51, 98 P.3d 318,
337.
¶ 38 Appellant has failed to show his counsel’s representation fell below an objective
standard of reasonableness or that any errors by counsel were so serious as to deprive
him of a fair trial with a reliable result.
Strickland, 466 U.S. at 687, 104 S.Ct. at 2064.
Appellant was not denied his Sixth Amendment right to the effective assistance of counsel.

APPENDIX B

Okl.

CABER v. DAHLE
Cite as 272 P.3d 733 (Okla.Civ.App. Div. 2 2012)

VIII.

CUMULATIVE ERROR

¶ 39 Finally, Appellant claims that trial
errors, when considered cumulatively, deprived him of a fair sentencing determination. This Court has recognized that concession when there are ‘‘numerous irregularities
during the course of [a] trial that tend to
prejudice the rights of the defendant, reversal will be required if the cumulative effect of
all the errors was to deny the defendant a
fair trial.’’ DeRosa v. State, 2004 OK CR 19,
¶ 100, 89 P.3d 1124, 1157, quoting Lewis v.
State, 1998 OK CR 24, ¶ 63, 970 P.2d 1158,
1176. Upon review of Appellant’s claims for
relief and the record in this case we conclude
that although his trial was not error free, any
errors and irregularities, even when considered in the aggregate, do not require relief
because they did not render his trial fundamentally unfair, taint the jury’s verdict, or
render sentencing unreliable. Any errors
were harmless beyond a reasonable doubt,
individually and cumulatively.
IX.

MANDATORY SENTENCE
REVIEW

¶ 40 Title 21 O.S.2001, § 701.13 requires
this Court to determine ‘‘[w]hether the sentence of death was imposed under the influence of passion, prejudice or any other arbitrary factor; and whether the evidence
supports the jury’s or judge’s finding of a
statutory aggravating circumstance.’’ After
conducting this review, this Court may order any corrective relief that is warranted
or affirm the sentence.
21 O.S.2001,
§ 701.13(E).
[29] ¶ 41 We have reviewed the record in
this case in conjunction with Appellant’s
claims for relief and have found that his
conviction and death sentence were not the
result of the introduction of improper evidence, improper witness testimony, prosecutorial misconduct or trial court error. We
therefore find Appellant’s death sentence
was not imposed because of any arbitrary
factor, passion or prejudice.
[30] ¶ 42 The jury’s finding that Appellant had been previously convicted of a felony
involving the use or threat of violence, knowingly created a great risk of death to more

733

than one person, that the murders were especially heinous, atrocious, or cruel and that
there existed a probability that he would
commit criminal acts of violence that would
constitute a continuing threat to society is
amply supported by the evidence. Appellant’s jury did not consider any improper
aggravating evidence in deciding punishment.
Weighing the aggravating circumstances and
evidence against the mitigating evidence, we
find, as did the jury below, that the aggravating circumstances outweigh the mitigating
circumstances. The Judgment and Sentence
of the district court is AFFIRMED.
DECISION
¶ 43 The Judgment and Sentence of the
district court is AFFIRMED. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of
Criminal Appeals, Title 22, Ch.18, App.
(2012), the MANDATE is ORDERED issued
upon the delivery and filing of this decision.
A. JOHNSON, P.J., LEWIS, V.P.J., and
SMITH, J.: concur.
LUMPKIN, J.: concur in result.

,
2012 OK CIV APP 19

Donald Joseph CABER, Jr.,
Petitioner/Appellant,
v.
Kendra L. DAHLE, Respondent/Appellee.
No. 108,421.
Released for Publication by Order of the Court
of Civil Appeals of Oklahoma, Division No. 2.

Court of Civil Appeals of Oklahoma,
Division No. 2.
Jan. 30, 2012.

Background: Father of out of wedlock
child filed a motion that sought sole custody of child, a finding that mother was in
contempt of court, and permission to relocate out of state with child. The District

APPENDIX B

APPENDIX C

AFFIDAVIT OF GREGG L. GRAVES
STATE OF OKLA1-IO1A
COUNTY OF TULSA

)
)

ss.

Befbre me, the undersigned notary, personally appeared Gregg L. Gi-aves, known to mc of
law Cu! age, who being by me first duly sworn, upon his oath, deposes and says:
I.

My name is Gregg Graves. I was co-counsel with Tulsa County Public Defender Pete Silva
for Raymond Johnson’s capital trial in Tulsa County Case Number CF—2007-35 14.

2.

Mr. Silva’s pnmry responsibility tvas the first stage of trial, and my primary responsibility
was the second stage of trial.

3.

Mr. Johnson adamantly insisted to me he did not commit the crimes he was charged with.

4.

1 was not aware Mr. Silva would, in his opening argument, effectively concede Mr. Johnson
killed Brooke and Kya Whitaker. To my recollection, Mr. Silva had never said anything to
me about making such a concession.

5.

To my knowledge, Mr. Silva did not secure Mr. Johnson’s consent for the concession. This
would not be the first time Mr. Silva made a concession without client consent.

FURTHER AFFIANT SAY ETH NOT.

Subscribed and sworn to before me this

4 day of

2018.

/

Page 1 of 1

APPENDIX D

